Una evaluación del incidente de septiembre de 2005 entre
el Negociado Federal de Investigaciones y Filiberto Ojeda Ríos

Agosto de 2006
Oficina del Inspector General


Glenn A. Fine, Inspector General del Departamento de Justicia de los Estados Unidos, emitió
hoy un informe de 171 páginas que analiza el incidente del tiroteo ocurrido en septiembre de
2005 entre el Negociado Federal de Investigaciones [Federal Bureau of Investigation (FBI)] y
Filiberto Ojeda Ríos. Ojeda era uno de los fundadores y líderes del Ejército Popular Boricua,
también conocido por “Macheteros”, una organización que se atribuyó crédito por varios delitos
violentos durante el periodo entre fines de la década del 70 y la década del 80, en la lucha por
la independencia de Puerto Rico. Ojeda estaba fugitivo hacía 15 años y se le buscaba en
conexión con un robo a una facilidad de la Wells Fargo en West Hartford, Connecticut, que
occurió en 1983.

A principios de septiembre de 2005, el FBI de San Juan determinó que era posible que Ojeda y
su esposa estuvieran viviendo en una casa en una cuesta rural de Hormigueros, en el lado
oeste de Puerto Rico. El 23 de septiembre de 2005, a las 4:28 p.m., un equipo de agentes del
FBI se aproximó al domicilio para arrestar a Ojeda. El operativo trajo como resultado un tiroteo
breve, pero intenso, entre Ojeda y el FBI. Ojeda hizo 19 disparos, 8 de los cuales alcanzaron a
agentes del FBI. Un agente fue herido de gravedad en el abdomen. Los agentes del FBI
hicieron 104 disparos durante el tiroteo inicial, ninguno de los cuales alcanzó a Ojeda.

Un cese al fuego siguió al tiroteo, durante el cual salió la esposa de Ojeda de la casa para
rendirse, y agentes del FBI entablaron un diálogo con Ojeda en un fracasado esfuerzo de
persuadirlo para que hiciera lo mismo. A las 6:08 p.m., un agente del FBI que se encontraba
aproximadamente a 20 pies de distancia, vio a Ojeda a través de una ventana de la cocina, con
una pistola en la mano. El agente hizo tres disparos, uno de los cuales alcanzó a Ojeda. Varios
agentes oyeron a Ojeda gritar y caer.

El FBI no entró a la casa hasta poco después del mediodía del día siguiente, cuando los agentes
encontraron a Ojeda tirado en el piso y muerto debido a una única herida de bala que le
perforó uno de sus pulmones.

A pedido del Director del FBI, la Oficina del Inspector General [Office of the Inspector General
(OIG)] realizó esta revisión de las circunstancias asociadas al operativo de arresto del FBI y la
muerte de Ojeda. El propósito de la OIG fue determinar si los agentes del FBI que dispararon
sus armas durante el operativo Ojeda cumplieron con la Política de Fuerza Mortal del
Departamento de Justicia. La OIG también evaluó los motivos por los cuales el FBI esperó
hasta el día siguiente para entrar al domicilio, más de 18 horas después de que Ojeda había
sido baleado. Además, la OIG examinó la decisión inicial del FBI de realizar un asalto de
urgencia a la luz del día contra el domicilio de Ojeda, dada la existencia de otras opciones
potenciales para la aprehensión de Ojeda. También evaluamos las negociaciones del FBI con
Ojeda durante el cese al fuego, así como las comunicaciones del FBI con autoridades del Estado
Libre Asociado de Puerto Rico, con relación a este operativo. Finalmente, la OIG examinó
alegaciones de que el FBI había dejado pasar oportunidades anteriores para arrestar a Ojeda
bajo circunstancias con menores probabilidades de resultar violentas.

En el curso de esta revisión, la OIG entrevistó a más de 60 personas, incluyendo los agentes
que participaron en el intento de arresto de Ojeda, autoridades de la Sede del FBI, funcionarios
de la Fiscalía Federal en Puerto Rico y funcionarios del Departamento de Justicia del Estado
Libre Asociado de Puerto Rico y la Policía de Puerto Rico. También llevamos a cabo entrevistas
de larga duración con el Director Ejecutivo del Instituto de Ciencias Forenses, y otros científicos
que participaron en la preparación de los informes forenses. Además, analizamos miles de
páginas de documentos generados por el FBI y la Fiscalía Federal asociados al asunto Ojeda, e
informes forenses pertinentes preparados por el Instituto de Ciencias Forenses del Estado Libre
Asociado de Puerto Rico, incluyendo el informe de autopsia, análisis de balas y casquillos de
balas, análisis de trayectoria, reconstrucción de disparo y análisis de patrón de sangre. Y por
último, la OIG contrató a tres peritos externos con peritaje en operaciones policiales tácticas
para que aportaran sus opiniones expertas y orientación sobre las decisiones tácticas del FBI en
el operativo Ojeda y el cumplimiento de la Política de Fuerza Mortal del Departamento de
Justicia:

Con base en esta revisión exhaustiva, la OIG concluyó que el uso de fuerza por los agentes del
FBI en el operativo Ojeda no violó la Política de Fuerza Mortal del Departamento de Justicia. La
Política establece que los oficiales de las fuerzas del orden público del Departamento pueden
usar fuerza mortal cuando el oficial “tenga motivos suficientes para creer que el objeto de dicha
fuerza representa un peligro inminente de muerte o lesión física grave al oficial u otra persona”.

Con relación al tiroteo inicial, la OIG encontró que Ojeda se había dado cuenta de que el FBI
estaba en camino para arrestarlo, se preparó para resistir el arresto, y abrió fuego contra los
agentes cuando intentaban entrar a su domicilio antes de que cualquiera de los agentes hubiera
efectuado un disparo. Concluimos que, una vez que Ojeda comenzó a disparar, se convirtió en
un peligro inminente de muerte o heridas graves para los agentes, y se justificó que los agentes
devolvieran los disparos de Ojeda.

De acuerdo con informes de los medios, la viuda de Ojeda, Elma Beatriz Rosado Barbosa
(Rosado), alegó que los agentes del FBI dispararon primero. Si bien Rosado se negó a ser
entrevistada por la OIG, no encontramos pruebas que respaldaran sus declaraciones. Sin
embargo, la OIG determinó que un agente del FBI detonó una granada “flash-bang” no letal en
el exterior de la casa, como táctica de distracción, cuando el FBI se aproximaba a la casa y
antes de que se iniciara cualquier intercambio de disparos, y creemos que Rosado puede haber
pensado que esta explosión eran tiros disparados por el FBI.

Además, la OIG evaluó los tres disparos efectuados por un agente del FBI hacia dentro de la
ventana de la cocina, a las 6:08 p.m., incluyendo el disparo que alcanzó y mató a Ojeda.
Hemos concluido que los mismos no violaron la Política de Fuerza Mortal del Departamento de
Justicia [Department of Justice (DOJ)]. El agente informó a la OIG que disparó después de
haber visto a Ojeda a través de la ventana, iluminado por una luz de refrigerador, agachado,
con una pistola en su mano izquierda apuntando a la ventana. Cuando los agentes del FBI
entraron a la casa al día siguiente, encontraron una pistola con el percusor engatillado y
cargada sobre el piso al lado de Ojeda, lo cual confirma que sostenía un arma cuando le
alcanzó el disparo. La prueba de trayectoria de bala también fue compatible con la declaración
del agente a la OIG. Asimismo, Ojeda ya había disparado desde la ventana y había demostrado
la intención de disparar contra los agentes del FBI. Teniendo en cuenta todos estos elementos,
la OIG concluyó que, en el momento en que el agente vio a Ojeda, el agente creyó
razonablemente que Ojeda representaba un peligro inminente para el agente y otras personas y,
por lo tanto, el agente no violó la política de Fuerza Mortal del Departamento al disparar contra
Ojeda.

La OIG también evaluó la decisión del FBI de realizar un asalto con urgencia a la luz del día
contra el domicilio para arrestar a Ojeda el 23 de septiembre. El FBI había planeado
inicialmente arrestar a Ojeda antes del amanecer del 24 de septiembre. El FBI adelantó la
operación cuando agentes a cargo de la vigilancia del domicilio informaron que creían haber
sido detectados por varias personas cerca del domicilio. Preocupaba al FBI que estas personas
pudieran ser simpatizantes de Ojeda y le advirtieran de que el FBI se encontraba cerca de los
predios. En consecuencia de estos, los supervisores del FBI cambiaron sus planes y ordenaron
un asalto urgente de inmediato a la luz del día contra el domicilio con el propósito de arrestar a
Ojeda. Se envió un equipo de arresto compuesto por 10 agentes del FBI en helicóptero a una
ubicación cerca del domicilio de Ojeda y de ahí se transportaron al jardín del frente de la casa
en un vehículo para todo terreno. Luego, los agentes subieron los escalones delanteros de la
casa de Ojeda y avanzaron al balcón delantero, exponiéndose a disparos de cercano alcance
provenientes de la casa.

La OIG concluyó que este asalto a la luz del día era sumamente peligroso y no era la mejor
opción disponible al FBI. Si Ojeda hubiera estado armado más fuertemente, es probable que
varios agentes del FBI hubieran muerto o hubieran resultado heridos de gravedad. El asalto a
la luz del día también se basó en la presunción no realista de que el FBI aún tendría la ventaja
del elemento sorpresa, a pesar de la creencia del FBI de que era probable que Ojeda hubiera
sido advertido de la presencia del FBI. Más aún, el FBI tendría que haber pensado que el ruido
del helicóptero también alertaría a Ojeda acerca de la presencia del FBI, y que Ojeda también
podría ver a los agentes subiendo los escalones del frente de la casa antes de que pudieran
entrar al domicilio. El FBI tenía información suficiente para prever que Ojeda estaría preparado
para resistir un intento de arresto con violencia, como lo había hecho en el pasado, y que
tendría una ventaja significativa sobre los agentes que intentaban el arresto en lo que se refiere
a cobertura, elevación y visibilidad. La OIG concluyó que una estrategia de rodear el domicilio y
exigir que Ojeda se entregara, con la opción de utilizar agentes químicos como el gas
lacrimógeno para obligar a Ojeda a salir, hubiera sido una estrategia más segura y más eficaz.
La OIG también encontró que el FBI dio poca o ninguna consideración a la opción de retirarse
sin tomar acción inmediata para arrestar a Ojeda.

La OIG también examinó los motivos por los cuales el FBI realizó el operativo en El Grito de
Lares, un feriado local de particular significado para los simpatizantes de la independencia de
Puerto Rico. La OIG no encontró nada que respaldara la alegación de que el FBI realizó el
arresto ese día, el 23 de septiembre, por motivos simbólicos, tal como intimidar a los
simpatizantes de la independencia de Puerto Rico. En realidad, el FBI planeaba arrestar a
Ojeda el 24 de septiembre, pero realizó un asalto urgente un día antes únicamente porque los
agentes a cargo de la vigilancia informaron que los habían detectado.

La OIG también evaluó los motivos por los cuales el FBI esperó hasta el día siguiente para
entrar al domicilio, más de 18 horas después de que Ojeda había sido baleado. Poco después
de que Ojeda fue alcanzado por el disparo a las 6:08 p.m., el FBI en Puerto Rico comenzó a
realizar preparaciones para entrar en la casa después de que oscureciera. Sin embargo, antes
de que se pudiera realizar esta operación, autoridades superiores de la Sede del FBI asumieron
el control de la decisión de entrada y determinaron que no ocurriría ninguna entrada hasta el
día siguiente, cuando llegara un equipo de relevo de agentes del FBI a Puerto Rico.

La OIG concluyó que el enfoque cauteloso del FBI con relación a entrar en el domicilio después
de que Ojeda fue alcanzado por el disparo se debió a inquietudes asociadas con la seguridad de
los agentes, y no por un deseo de privar a Ojeda de tratamiento médico o dejarlo morir. La
inquietud del FBI durante este periodo era que Ojeda podría no estar incapacitado o que
pudiera haber un segundo tirador dentro de la casa, ya que el equipo de arresto creía que se
había disparado más de un arma contra ellos durante el tiroteo inicial. Preocupaba también a
autoridades de la Sede del FBI que resultara difícil detectar dispositivos explosivos improvisados
en el interior de la casa de noche. Encontramos que las autoridades superiores del FBI que
ordenaron que se postergara la entrada opinaban que las inquietudes asociadas a la seguridad
de los agentes pesaban más que la necesidad de atención médica a Ojeda.

Si bien no concluimos que la decisión de postergar la entrada hasta el día siguiente fue
incorrecta, también encontramos que la distancia y los múltiples niveles de mando entre los
agentes en el lugar de los hechos y las autoridades de la Sede del FBI en Washington afectaron
la información en la que se basó la decisión de la Sede. Los agentes en el lugar de los hechos
creían que Ojeda había sido gravemente herido o había muerto, y en el curso de la noche
pasaron a preocuparse menos con la posibilidad de que hubiera otras personas en la casa. Sin
embargo, sus evaluaciones no llegaron a las autoridades en la Sede del FBI, quienes tomaron la
decisión de no entrar a la casa hasta el día siguiente basados en la creencia de que Ojeda aún
representaba un peligro y podría tener un cómplice.

Sin embargo, la OIG también encontró que la decisión de postergar la entrada hasta el día
siguiente probablemente no tuvo impacto en la muerte de Ojeda. El patólogo forense del
Instituto de Ciencias Forenses del Estado Libre Asociado de Puerto Rico que realizó la autopsia
estimó que Ojeda murió desangrado aproximadamente de 15 a 30 minutos después de haber
sido alcanzado por los disparos, lo que colocaría la hora de su muerte entre las 6:23 y las 6:38
p.m. De acuerdo con este estimado, aunque los agentes del FBI en el lugar de los hechos
hubieran puesto en práctica su plan de entrar al domicilio después del anochecer el día 23 de
septiembre, Ojeda ya habría muerto. Si el estimado del patólogo era correcto, la única
posibilidad de salvar la vida de Ojeda hubiera sido que los agentes entraran al domicilio poco
tiempo después de que se hicieron los tres disparos, evacuando a Ojeda de inmediato. Dada la
incertidumbre asociada al estado de Ojeda y la creencia de que se había disparado más de un
arma desde el interior de la casa durante el tiroteo, una acción inmediata para entrar a la casa
hubiera sido peligrosa y la OIG no concluyó que el FBI actuó de forma indebida al tomar una
actitud más cautelosa.

La OIG también analizó las negociaciones del FBI con Ojeda durante el cese al fuego, antes de
que fuera alcanzado por los disparos. Encontramos que los agentes del FBI que planearon el
operativo debieran haber aceptado la oferta de la Unidad de Negociación del FBI en Quantico,
Viginia, realizada antes del operativo, en el sentido de proporcionar negociadores altamente
capacitados en el caso de un cese al fuego. Si bien el FBI utilizó un negociador de su oficina
de San Juan durante el cese al fuego, el FBI no cumplió sus propias políticas relacionadas con la
integración de negociadores en la planificación de operativos o el uso de múltiples negociadores.

La OIG también examinó las comunicaciones del FBI con el público y autoridades del Estado
Libre Asociado de Puerto Rico relacionadas con el operativo Ojeda. Encontramos que el FBI
dejó pasar oportunidades de proporcionar información precisa al público y a las autoridades del
Estado Libre Asociado relacionadas con los motivos por los cuales se postergó la entrada al
domicilio de Ojeda, incluyendo la preocupación del FBI relacionada con la existencia de un
segundo tirador. Creemos que el FBI debió haber proporcionado información más precisa, lo
cual también podría haber reducido las críticas asociadas a los motivos por los cuales el FBI no
entró al domicilio de inmediato.

Además, se hicieron alegaciones de que el FBI tenía información suficiente sobre el paradero y
hábitos de Ojeda a lo largo de varios años como para arrestarlo en forma segura, lejos de su
casa. La OIG no encontró pruebas que respaldaran estas alegaciones. Si bien el FBI había
recibido anteriormente información que sugería la posible presencia de Ojeda en Hormigueros,
encontramos que el FBI no pasó por alto intencionalmente oportunidades de arrestar a Ojeda
en otro lugar.

Por último, el informe de la OIG brindó diez recomendaciones sistémicas en el informe,
asociadas con problemas que encontramos en la forma en que se llevó a cabo el operativo
sobre el arresto de Ojeda. Nuestras recomendaciones, las cuales tienen la finalidad de mejorar
la planificación y conducción de futuros operativos de arresto del FBI, incluyen cosas como
asegurar que se consideren todas las opciones tácticas pertinentes cuando cambian las
circunstancias y asegurar que se integren negociadores en la planificación táctica de operativos
en los cuales el cese al fuego sea una contingencia previsible.

El Inspector General Fine dijo que, “Si bien nuestro informe no encontró que el FBI haya
violado la Política de Fuerza Mortal ni que intencionalmente permitiera la muerte de Ojeda, sí
encontramos deficiencias en la forma en que el FBI llevó a cabo el operativo de arresto. Las
decisiones del FBI se vieron perjudicadas por la consideración inadecuada de opciones alternas
y de preparación inadecuada para situaciones previsibles. Creemos que nuestro informe y
nuestras recomendaciones pueden ayudar al FBI a evitar problemas similares en operativos
futuros”.

El informe completo de la OIG y la versión en español del Resumen Ejecutivo del informe de la
OIG están disponibles en el portal de la OIG, www.usdoj.gov/oig, bajo los títulos “What’s New”
(Novedades) y “Special Reports” (Informes especiales).

En caso de dudas, pueden comunicarse con nosotros al (202) 514-3435.

Paul Martin
Cynthia Schnedar
